{-f-E
o
    · .,t'SIa.V1Cl..r.
  .,..-




 "+.~
                         "J:,

                                  DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                           Office of Inspector General
                                                                                                           Office of Audit Services



  ~f>-... lJ                                                                                               Region vn
                                                                                                           601 East 12th Street
                                JUL 1 6 2009                                                               Room 0429
                                                                                                           Kansas City, Missouri 64106
                                        ,
                            Report Number: A-07-09-02751

                            Ms. Joan Henneberry
                            Executive Director
                            Department of Health Care Policy & Financing

                            1570 Grant Street

                            Denver, Colorado 80203-1818

                            Dear Ms. Henneberry:

                            Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                            General (OIG), final report entitled "Review of Medicaid Credit Balances at Colorado State
                            Veterans Home at Fitzsimons." We will forward a copy of this report to the HHS action official
                            noted on the following page for review and any action deemed necessary.

                            The HHS action official will make final determination as to actions taken on all matters reported.
                            We request that you respond to this official within 30 days from the date of this letter. Your
                            response should present any comments or additional information that you believe may have a
                            bearing on the final determination.

                           Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
                           available to the public to the extent that information in the report is not subject to exemptions in
                           the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                           If you have any questions or comments about this report, please do not hesitate to call me at
                           (816) 426-3591, or contact Jim Korn, Audit Manager, at (303) 844-7153 or through email at
                           James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02751 in all correspondence.

                                                                         Sincerely,




                                                                         Patrick J. Cogley
                                                                         Regional Inspector General
                                                                          for Audit Services


                           Enclosure
Page 2 – Ms. Joan Henneberry


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF MEDICAID CREDIT
BALANCES AT COLORADO STATE
     VETERANS HOME AT
        FITZSIMONS




                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-07-09-02751
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (State agency) administers the State’s Medicaid program in accordance
with its CMS-approved State plan.

Providers of Medicaid services, such as nursing facilities, submit claims to the State agency in
order to receive compensation for the services they provide to Medicaid beneficiaries. The State
agency processes and pays the claims. The Federal Medical Assistance Percentage specifies the
percentage of each claim to be reimbursed by Federal funds (this reimbursement is commonly
referred to as the Federal share) and is determined pursuant to 42 CFR § 433.10.

Credit balances occur when the Federal reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges earned, for example when a provider
bills Medicaid for more days than the patient was at the facility. In such cases, the provider
should return the existing overpayment to the Medicaid program, which pursuant to 42 CFR
§ 433.139 is the payer of last resort.

To avoid abuse of the Medicaid program, sound fiscal and business practices require provider
repayment of identified overpayments within a reasonable period of time. Federal regulations
require States to adjust any outstanding credit balances within 60 days after notification by a
provider that a credit balance exists. The Code of Colorado Regulations at 10 CCR 2505-10
§ 8.076.1 defines abuse of the Medicaid program as provider practices that are inconsistent with
sound fiscal or business practices, to include failure to repay or make arrangements to repay
overpayments or payments made in error.

Colorado State Veterans Nursing Home at Fitzsimons (Fitzsimons) is a 180-bed nursing home
located in Aurora, Colorado, that participates in the Medicaid program. It is one of five State-
run veterans nursing homes in Colorado.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Fitzsimons’
accounting records for patient services constituted overpayments that should have been returned
to the Medicaid program pursuant to Federal and State requirements.




                                                 i
SUMMARY OF FINDINGS

Medicaid credit balances recorded in Fitzsimons’ accounting records for patient services
included $87,430 ($43,715 Federal share) in unallowable overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements. These Medicaid
credit balances also included $15,321 ($7,661 Federal share) in potentially unallowable
overpayments that may, subject to further evaluation by the State agency, have to be returned to
the Medicaid program.

Fitzsimons has taken steps to identify and repay some of its outstanding Medicaid credit
balances. In 2007 and 2008 it repaid over $75,000 of outstanding Medicaid overpayments to the
State agency. However, Fitzsimons still had a large backlog of outstanding credit balances that
had not been addressed as of January 31, 2009. Some of these outstanding Medicaid credit
balances were associated with billings that occurred over three years ago. As a result,
Fitzsimons did not repay Medicaid overpayments totaling $87,430 ($43,715 Federal share) to the
Medicaid program in a reasonable time period in accordance with Federal and State Medicaid
requirements.

These errors occurred because Fitzsimons had inadequate policies and procedures in place to
ensure the timely reimbursement of Medicaid overpayments. Specifically, Fitzsimons did not
always have policies and procedures in place to:

   •   regularly review the Resident Accounts Receivable Aging Report to identify and confirm
       outstanding Medicaid credit balances that were payable to the State agency and

   •   notify the State agency regarding outstanding Medicaid credit balances that were due and
       payable.

Furthermore, Fitzsimons officials confirmed that most of the credit balances over 60 days old
were Medicaid overpayments. Due to the inadequacy of policies and procedures that would
ensure that Fitzsimons would notify the State agency and refund any overpayments, we are
setting aside, for adjudication by the State agency, the remaining credit balances at that facility:
credit balances that we did not review and that totaled $15,321 ($7,661 Federal share) in
potentially unallowable costs.

In our review of the accounts in Fitzsimons’ accounting records, we determined that $14,534
($7,267 Federal share) were not actually overpayments. These funds were included in
Fitzsimons’ accounting records in error.

RECOMMENDATIONS

We recommend that the State agency:

   •   recover from Fitzsimons the $87,430 ($43,715 Federal share) of Medicaid overpayments
       and refund the $43,715 to the Federal Government;




                                                  ii
   •   work with Fitzsimons to evaluate the remaining credit balances that we did not review
       and determine what portion (if any) of the $15,321 ($7,661 Federal share) was due to
       Medicaid overpayments, and then collect that portion and refund the Federal share to the
       Federal Government; and

   •   ensure that Fitzsimons develops, implements, documents, and maintains written policies
       and procedures to identify outstanding Medicaid credit balances and to notify the State
       agency of these credit balances in a timely manner.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency’s comments appear in their entirety as the Appendix.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Federal Reimbursement and Medicaid Credit Balances......................................1
              Colorado State Veterans Nursing Home at Fitzsimons .......................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          FEDERAL AND STATE MEDICAID REQUIREMENTS............................................4

          UNALLOWABLE MEDICAID OVERPAYMENTS ....................................................4

          POTENTIALLY UNALLOWABLE MEDICAID OVERPAYMENTS ........................5

          INADEQUATE POLICIES AND PROCEDURES ........................................................5

          RECOMMENDATIONS.................................................................................................6

          STATE AGENCY COMMENTS....................................................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (State agency) administers the State’s Medicaid program in accordance
with its CMS-approved State plan.

Federal Reimbursement and Medicaid Credit Balances

Providers of Medicaid services, such as nursing facilities, submit claims to the State agency in
order to receive compensation for the services they provide to Medicaid beneficiaries. The State
agency processes and pays the claims. The Federal Medical Assistance Percentage specifies the
percentage of each claim to be reimbursed by Federal funds (this reimbursement is commonly
referred to as the Federal share) and is determined pursuant to 42 CFR § 433.10.

Credit balances occur when the Federal reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges earned, for example when a provider
bills Medicaid for more days than the patient was at the facility. In such cases, the provider
should return the existing overpayment to the Medicaid program, which pursuant to 42 CFR
§ 433.139 is the payer of last resort.

To avoid abuse of the Medicaid program, sound fiscal and business practices require provider
repayment of identified overpayments within a reasonable period of time. Federal regulations
require States to adjust any outstanding credit balances within 60 days after notification by a
provider that a credit balance exists. The Code of Colorado Regulations at 10 CCR 2505-10
§ 8.076.1 defines abuse of the Medicaid program as provider practices that are inconsistent with
sound fiscal or business practices, to include failure to repay or make arrangements to repay
overpayments or payments made in error.

Colorado State Veterans Nursing Home at Fitzsimons

Colorado State Veterans Nursing Home at Fitzsimons (Fitzsimons) is a 180-bed nursing home
located in Aurora, Colorado, that participates in the Medicaid program. It is one of five State-
run veterans nursing homes in Colorado.




                                                 1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Fitzsimons’
accounting records for patient services constituted overpayments that should have been returned
to the Medicaid program pursuant to Federal and State requirements.

Scope

We identified $117,285 ($58,643 Federal share) which comprised the 77 accounts in Fitzsimons’
accounting records whose net Medicaid credit balances were, as of January 31, 2009, outstanding
over 60 days. We selected 26 of the 77 accounts totaling $101,964 ($50,982 Federal share) for
detailed testing.

We did not review the overall internal control structure at either Fitzsimons or the State agency
because our objective did not require us to do so. Rather, we limited our review of internal
controls to obtaining an understanding of the policies and procedures that Fitzsimons used to
review credit balances and report overpayments to the Medicaid program.

We performed our fieldwork from January to March 2009 at Fitzsimons in Aurora, Colorado.

Methodology

To accomplish our objective, we:

   •    researched and reviewed Federal and State requirements pertaining to Medicaid credit
        balances;

   •    identified and reconciled Fitzsimons’ Medicaid credit balances to its accounting records
        as of January 31, 2009;

   •    reconciled Fitzsimons’ January 31, 2009, credit balance list to the accounts receivable
        records, and reconciled the accounts receivable records to the general ledger;

   •    judgmentally selected and tested 26 credit balance accounts that were outstanding over 60
        days, that had Medicaid listed as a payer, and that had credit balances greater than
        $1,000;

   •    reviewed patient payment data, Medicaid claim forms and remittance advices, patient
        accounts receivable detail, and additional supporting documentation for each of the
        judgmentally selected credit balance accounts; and

   •    coordinated our audit with officials from the State agency.




                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Medicaid credit balances recorded in Fitzsimons’ accounting records for patient services
included $87,430 ($43,715 Federal share) in unallowable overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements. These Medicaid
credit balances also included $15,321 ($7,661 Federal share) in potentially unallowable
overpayments that may, subject to further evaluation by the State agency, have to be returned to
the Medicaid program.

Fitzsimons has taken steps to identify and repay some of its outstanding Medicaid credit
balances. In 2007 and 2008 it repaid over $75,000 of outstanding Medicaid overpayments to the
State agency. However, Fitzsimons still had a large backlog of outstanding credit balances that
had not been addressed as of January 31, 2009. Some of these outstanding Medicaid credit
balances were associated with billings that occurred over three years ago. As a result,
Fitzsimons did not repay Medicaid overpayments totaling $87,430 ($43,715 Federal share) to the
Medicaid program in a reasonable time period in accordance with Federal and State Medicaid
requirements.

These errors occurred because Fitzsimons had inadequate policies and procedures in place to
ensure the timely reimbursement of Medicaid overpayments. Specifically, Fitzsimons did not
always have policies and procedures in place to:

   •   regularly review the Resident Accounts Receivable Aging Report to identify and confirm
       outstanding Medicaid credit balances that were payable to the State agency and

   •   notify the State agency regarding outstanding Medicaid credit balances that were due and
       payable.

Furthermore, Fitzsimons officials confirmed that most of the credit balances over 60 days old
were Medicaid overpayments. Due to the inadequacy of policies and procedures that would
ensure that Fitzsimons would notify the State agency and refund any overpayments, we are
setting aside, for adjudication by the State agency, the remaining credit balances at that facility:
credit balances that we did not review and that totaled $15,321 ($7,661 Federal share) in
potentially unallowable costs.

In our review of the accounts in Fitzsimons’ accounting records, we determined that $14,534
($7,267 Federal share) were not actually overpayments. These funds were included in
Fitzsimons’ accounting records in error.




                                                  3
FEDERAL AND STATE MEDICAID REQUIREMENTS

42 U.S.C. § 1396(b)(d)(2)(C) states that, “when an overpayment is discovered, which was made
by a State to a person or other entity, the State shall have a period of 60 days in which to recover
or attempt to recover such overpayment before adjustment is made in the Federal payment to
such State on account of such overpayment . . . . [T]he adjustment in the Federal payment shall
be made at the end of the 60 days, whether or not recovery was made.”

Pursuant to the implementing regulations for this legislation, 42 CFR § 433, subpart F,
“Refunding the Federal Share of Medicaid Overpayments to Providers,” States must adjust any
outstanding credit balances.

In accordance with these Federal regulations, the State agency must adjust the applicable claim
or recover the amount of the Medicaid overpayment from the provider within 60 days of
notification. The Code of Colorado Regulations at 10 CCR 2505-10 § 8.076.3 states that
identified overpayments to a provider are recoverable “. . . through a repayment agreement with
the Provider, by offsetting the amount owed against current and future claims of the Provider,
through litigation, or by any other appropriate action within the [State agency’s] legal authority.”

The Code of Colorado Regulations at 10 CCR 2505-10 § 8.076.1 defines abuse of the Medicaid
program as provider practices that are inconsistent with sound fiscal or business practices, to
include failure to repay or make arrangements to repay overpayments or payments made in error.
To avoid abuse of the Medicaid program, sound fiscal and business practices require provider
repayment of identified overpayments within a reasonable period of time. Although the State
regulations contain this language, the State of Colorado does not have any regulations requiring
providers to refund Medicaid credit balances within a specified timeframe.

UNALLOWABLE MEDICAID OVERPAYMENTS

Medicaid credit balances recorded in Fitzsimons’ accounting records for patient services
included $87,430 ($43,715 Federal share) in unallowable overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements. Our judgmental
sample identified 77 cases of Medicaid credit balances at Fitzsimons that were, as of
January 31, 2009, over 60 days old.

These overpayments occurred because Fitzsimons did not properly maintain patient census data
and patient fiscal records and conducted erroneous billing for a non-Medicaid beneficiary.
Sometimes the credit balances were outside the control of the nursing facility because the
appropriate county did not verify the beneficiary’s income or determine the patient payment
amount in a timely manner.

The types of issues described above can be improved, but the normal operations of the nursing
home facility are such that overpayments will occur. Accordingly, this review focused on
whether Fitzsimons had adequate policies and procedures in place to notify and repay the State
agency in a timely manner once a Medicaid overpayment had been identified.




                                                 4
In the last two years Fitzsimons repaid over $75,000 to the State agency for Medicaid
overpayments that had been outstanding for over a year. Fitzsimons made the repayments by
completing hardcopy forms and mailing them to the State agency. According to Fitzsimons staff
members, Fitzsimons followed this procedure because it did not have sufficient resources to
review Medicaid payments, and return overpayments to the State agency, in a more timely
manner. Instead, Fitzsimons made repayments by mail, in hardcopy, one year after the
overpayment had occurred. (Fitzsimons staff informed us that the State agency would not accept
hardcopy repayments by mail until a year after the overpayment occurred.) However,
repayments can be filed electronically, on the State agency’s electronic portal, on a more timely
basis. Fitzsimons’ attempts to repay these Medicaid overpayments were sporadic, and large
backlogs of such credits were processed on only a few occasions when the staff had the available
time to perform this task. As a result, Fitzsimons did not repay Medicaid overpayments totaling
$87,430 ($43,715 Federal share) to the Medicaid program in a reasonable time period in
accordance with Federal and State Medicaid requirements.

POTENTIALLY UNALLOWABLE MEDICAID OVERPAYMENTS

Medicaid credit balances recorded in Fitzsimons’ accounting records for patient services
included $15,321 ($7,661 Federal share) in potentially unallowable overpayments that may,
subject to further evaluation by the State agency, have to be returned to the Medicaid program.

During our fieldwork, Fitzsimons officials confirmed that most of the credit balances over 60
days old—that is, most of the credit balances above and beyond the 26 that we judgmentally
selected for review—were Medicaid overpayments. Due to the inadequacy of policies and
procedures that would ensure that Fitzsimons would notify the State agency and refund any
overpayments, we are setting aside, for adjudication by the State agency, the remaining credit
balances at that facility: credit balances that we did not review and that totaled $15,321 ($7,661
Federal share) in potentially unallowable costs.

INADEQUATE POLICIES AND PROCEDURES

Fitzsimons had inadequate policies and procedures in place to ensure the timely reimbursement
of Medicaid overpayments pursuant to Federal and State requirements. Specifically:

   •   Fitzsimons did not always have policies and procedures in place to regularly review the
       Resident Accounts Receivable Aging Report to identify and confirm outstanding
       Medicaid credit balances that were payable to the State agency.

   •   Fitzsimons did not always have policies and procedures in place to notify the State
       agency regarding outstanding Medicaid credit balances that were due and payable.

   •   Fitzsimons had not documented its current policies and procedures to identify and
       confirm outstanding Medicaid credit balances or to notify the State agency of such
       balances.




                                                 5
RECOMMENDATIONS

We recommend that the State agency:

   •   recover from Fitzsimons the $87,430 ($43,715 Federal share) of Medicaid overpayments
       and refund the $43,715 to the Federal Government;

   •   work with Fitzsimons to evaluate the remaining credit balances that we did not review
       and determine what portion (if any) of the $15,321 ($7,661 Federal share) was due to
       Medicaid overpayments, and then collect that portion and refund the Federal share to the
       Federal Government; and

   •   ensure that Fitzsimons develops, implements, documents, and maintains written policies
       and procedures to identify outstanding Medicaid credit balances and to notify the State
       agency of these credit balances in a timely manner.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency’s comments appear in their entirety as the Appendix.




                                               6
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
